No. 21-144

INTHE

$>Upreme Qtourt of tbe mlntteb $>tates
SEATTLE'S UNION GOSPEL MISSION,

Petitioner,

v.
MATTHEWS. WOODS,

Respondent.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that all parties required to be served, have been served, on this 2 nd
day of September, 2021, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing BRIEF OF GOSPEL RESCUE MISSION FELLOWSHIP et
al. AS AMICI CURIAE IN SUPPORT OF PETITIONER by placing said copies in
the U.S. mail, first class postage prepaid, addressed as listed below.
John J. Bursch
Alliance Defending Freedom
440 1st Street, NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

Jennifer Denise Diskin
QLaw Foundation of Washington
101 Yesler Way
Suite 300
Seattle, WA 98104
(206) 483-2725
denise@qlawfoundation .org

N S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100

Washington, DC 20036
(202) 34 7-8203
District of Columbia

NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2025.

